x

.v
\4-

'i
'

APPENDIX “C

99

RULING:
LA. 5th CIR. COURT OF APPEAL

WEST LAW
State v. J.E.
Court of Appeal of Louisiana, Fifth Circuit. \ September 2, 2020 : 301 So.3d 1262

19-478 (La.App. 5 Cir. 9/2/20)

(Approx. 20 pag

301 So.3d 1262
Court of Appeal of Louisiana, Fifth Circuit.

STATE of Louisiana
v.

J.E.
NO. 19-KA-478
September 02, 2020

Synopsis
Background: Defendant was convicted in the District Court, 29th Judicial District, St.
Charles Parish, No. 17,740, M. Lauren Lemmon, J., of various sex offenses, including
molestation of juvenile under age 13 and molestation of juvenile over age of 13 but under
17. Defendant appealed.
Holdings: The Court of Appeal, Windhorst, J., held that:
1 there was sufficient evidence that defendant committed molestation of victim, his
granddaughter, while having supervision or control over victim;
2 it would not second guess jury's witness-credibility determinations;
3 offense of molestation of juvenile under age 13 was serious offense for which unanimous
verdict was required; and
4 trial court erred by providing incomplete notice of time limitation for seeking post­
conviction relief.
Affirmed in part, vacated in part, and remanded.
Appellate ReviewPost-Trial Hearing Motion
West Headnotes (24)
Change View
1

Criminal Law
Scope of Review in General
Criminal Law G:=> Weight and sufficiency
When the issues on appeal relate to both the sufficiency of the evidence and

1 of 23

one or more trial errors, the reviewing court should first determine the sufficiency
of the evidence by considering the entirety of the evidence.

2

Criminal Law
Scope of Review in General
The reason for reviewing sufficiency of evidence first, when the issues on appeal
relate to both the sufficiency of the evidence and one or more trial errors, is that
the accused may be entitled to an acquittal under Hudson v. Louisiana, 101
S.Ct. 970, if a reasonable trier of fact, viewing the evidence in the light most
favorable to the prosecution, could not reasonably conclude that all of the
elements of the offense have been proven beyond a reasonable doubt.

3

Criminal Law
Scope of Review in General
When the issues on appeal relate to both the sufficiency of the evidence and
one or more trial errors, consideration of sufficiency of evidence precedes
consideration of other assignments of error which, if meritorious, result in
vacating a conviction due to trial errors, and remand for possible retrial.

4

Double Jeopardy Cr3*' Sufficiency or insufficiency of evidence
When a claim of insufficiency of evidence is found to have merit, it results in a
reversal due to a failure to prove a charge beyond a reasonable doubt, to which
jeopardy attaches and cannot be retried.

5

Criminal Law 0^ Scope of Review in General
Sufficiency of evidence analysis precedes consideration of whether a verdict
must be vacated and remanded under Ramos v. Louisiana, which found that the
Sixth Amendment right to a jury trial, as incorporated against the States by the
Fourteenth Amendment, requires a unanimous verdict to convict a defendant of
a serious offense. U.S. Const. Amends. 6, 14.

6

Criminal Law
Construction in favor of government, state, or prosecution
Criminal Law ‘Lr5* Reasonable doubt
Criminal Law
Circumstantial evidence
Constitutional standard for testing the sufficiency of evidence requires that the
evidence, direct or circumstantial, or a mixture of both, viewed in the light most
favorable to the prosecution, was sufficient to convince a rational trier of fact that
all of the elements of the crime have been proven beyond a reasonable doubt, in

2 of 23

accord with Jackson v. Virginia.

7

Criminal Law O33* Degree of proof
All evidence, both direct and circumstantial, must be sufficient to support the
conclusion that the defendant is guilty beyond a reasonable doubt.

8

Infants Cr33 Status as to child; position of authority or trust
Sex Offenses
Position of trust or authority
There was sufficient evidence that defendant committed molestation of victim,
his granddaughter, while having supervision or control over victim, to support
convictions of molestation of juvenile; defendant, age 70 at time of trial, was
victim's biological grandfather, defendant routinely watched and supervised
victim because mother was single mother who worked full time, as victim's
grandfather defendant was in position of trust and acted as victim's father-figure,
defendant bought victim clothing, took her out to eat, and drove her to sports
events, therapy sessions, and school, and mother moved to another state in part
because she felt she was losing control over victim due to defendant's influence.
La. Rev. Stat. Ann. § 14:81.2.

9

Infants O33' Status as to child; position of authority or trust
Infants tr53 Molestation and exploitation in general
Sex Offenses O3* Position of trust or authority
Courts consider the following factors when making a determination as to
whether a defendant used influence by virtue of his position of supervision or
control over the victim, as an element of the offense of molestation of a juvenile:
(1) the amount of time the defendant spent alone with the victim; (2) the nature
of the relationship between the victim and the defendant; (3) the defendant's
age; and (4) the defendant's authority to discipline. La. Rev. Stat. Ann. §
14:81.2.

10

Infants
Molestation and exploitation in general; indecent liberties
Sex Offenses O331' Sex offenses against minors
Harsher penalty provision for molestation of a juvenile where the offender has
control or supervision over a juvenile exists because an offender who has
control or supervision over a juvenile is in a position of trust. La. Rev. Stat. Ann.
§14:81.2.

3 of 23

11

Criminal Law
Sufficiency of evidence
Defendant, convicted of molestation of juvenile, waived for appellate review his
argument that evidence presented was only sufficient to convict him of lesser
charge of indecent behavior with juvenile; jury charge conference was held and
responsive verdicts were discussed for each charge, and defendant did not
object to exclusion of responsive verdict of indecent behavior with juvenile under
13. La. Code Crim. Proc. Ann. arts. 814, 815, 841.

12

Responsiveness to issues
Criminal Law
Statute listing responsive verdicts authorized by the legislature does not list
either molestation of a juvenile or indecent behavior with a juvenile; however, as
provided for in statute, the inclusion of lesser-included grades of offenses is
allowed even when not listed in the statute listing responsive verdicts. La. Code
Crim. Proc. Ann. arts. 814, 815.

13

Criminal Law
Responsiveness to issues
Indecent behavior with a juvenile is a responsive verdict to molestation of a
juvenile.

14

Particular offenses and prosecutions
Criminal Law
In finding defendant guilty of various sexual offenses, including molestation of
juvenile, jury weighed credibility of victim and victim's brother, who were
defendant's grandchildren, and Court of Appeal would not second guess jury's
witness-credibility determinations; jury heard and considered that victim was in
therapy for anger issues and problems at school, circumstances that prompted
her disclosure that defendant molested her, brother's testimony regarding
incidents he observed between defendant and victim, and text messages
exchanged between mother and defendant immediately after disclosure,
including fact that mother demanded money.

15

Criminal Law 3^ Credibility of witnesses in general
Criminal Law
Credibility of Witnesses
Credibility of a witness, including the victim, is within the sound discretion of the
trier of fact, who may accept or reject, in whole or in part, the testimony of any
witness.

4 of 23

16

Criminal Law 0^ Credibility of witnesses in general
In the absence of internal contradiction or irreconcilable conflicts with physical
evidence, the testimony of one witness, if believed by the trier of fact, is
sufficient to support a conviction.

5 of 23

17

Sex Offenses
Necessity
In sex offense cases, the testimony of the victim alone can be sufficient to
establish the elements of a sexual offense, even when the State does not
introduce medical, scientific, or physical evidence to prove the commission of
the offense.

18

Criminal Law
Province of jury or trial court
It is the role of the fact-finder to weigh the respective credibility of the witnesses;
thus, the appellate court should not second-guess the credibility determinations
of the trier of fact beyond the sufficiency evaluations under the Jackson v.
Virginia standard of review.

19

Criminal Law
Credibility of witnesses in general
Even where there is conflicting testimony about factual matters, the resolution of
which depends upon a determination of the credibility of the witnesses, the
matter is one of the weight of the evidence, not its sufficiency.

20

Criminal Law
Assent of required number of jurors
Offense of molestation of juvenile under age 13 was serious offense for which
unanimous verdict was required, and therefore verdicts resulting from
defendant's jury trial that were not unanimous would be vacated. U.S. Const.
Amend. 6; La. Const, art. 1, § 17; La. Code Crim. Proc. Ann. art. 782(A).

21

Jury
Application of constitutional provisions in general
For purposes of the Sixth Amendment, federal law defines “petty offenses” as
offenses subject to imprisonment of six months or less, and serious offenses as
offenses subject to imprisonment over six months. U.S. Const. Amend. 6.

22

Jury
Application of constitutional provisions in general
Sixth Amendment's right to a jury trial only attaches to serious offenses. U.S.

Const. Amend. 6.

23

Sentencing and Punishment
Advice as to post-conviction or other
collateral relief
Trial court erred by providing incomplete notice of time limitation for seeking
post-conviction relief. La. Code Crim. Proc. Ann. art. 930.8.

24

Criminal Law
Sentence or Punishment
If a trial court fails to advise, or provides an incomplete notice pursuant to statute
governing time limitation for seeking post-conviction relief, Court of Appeals may
correct said error by informing the defendant of the applicable delay period for
post-conviction relief by means of its opinion. La. Code Crim. Proc. Ann. art.
930.8.

West Codenotes
Unconstitutional as Applied
La. Const, art. 1, § 17; La. Code Crim. Proc. Ann. art. 782(A)
*1265 ON APPEAL FROM THE TWENTY-NINTH JUDICIAL DISTRICT COURT PARISH
OF ST. CHARLES, STATE OF LOUISIANA, NO. 17,740, DIVISION “D”, HONORABLE M.
LAUREN LEMMON, JUDGE PRESIDING
Attorneys and Law Firms
COUNSEL FOR PLAINTIFF/APPELLEE, STATE OF LOUISIANA, Joel T. Chaisson, II,
Baton Rouge, Louis G. Authement, Hahnville
COUNSEL FOR DEFENDANT/APPELLANT, JOHN ELMER, John Elmer, Jane L. Beebe
Panel composed of Judges Fredericka Homberg Wicker, Stephen J. Windhorst, and John
J. Molaison, Jr.
ORDER
WINDHORST, J.
**1 Considering the State's timely Motion to Recall Opinion pursuant to URCA Rule
2--16.3, in which the State contends that although the opinion rendered by this Court on
July 31, 2020 fully complied with and exceeded the requirements of Rule 5--2 by use of
initials and other means to *1266 protect the identity of a minor, and moves this Court to

6 of 23

recall the opinion for purpose of redacting certain additional facts which could conceivably
lead to identity of the victim; and further considering that this case involved matters of an
unusually sensitive nature which, in this extraordinary case, provide sufficient cause for us
to take extra measures to protect the identity of the victim:
IT IS ORDERED that the State's Motion to Recall Opinion filed August 11, 2020 is granted,
and the opinion rendered by this Court on July 31, 2020 is recalled for the purpose of
redacting from it certain facts which could lead to discovery of the identity of the victim; and
that a superseding opinion be issued without changing the substance of the original
opinion.
IT IS FURTHER ORDERED that the Clerk of this Court take necessary measures to recall
the original opinion and substitute for it the superseding opinion bearing the same date of
this order.
IT IS FURTHER ORDERED that the Clerk of Court for the 29th Judicial District Court take
all necessary measures to recall and remove from the record the original opinion and
substitute for it the superseding opinion, rendered the same date of this order.
IT IS FURTHER ORDERED that Westlaw / Thomson Reuters Corporation and LexisNexis
recall the opinion rendered by this Court on July 31, 2020, and substitute for it this Court's
superseding opinion, rendered the same date of this order.
Gretna, Louisiana, this 2nd day of September, 2020.
Defendant, J.E.,1 appeals his convictions and sentences. For the reasons stated herein,
defendant's conviction and sentence on count six is affirmed; defendant's convictions and
sentences on counts three through five are vacated and the matter is remanded to the trial
court for further proceedings consistent with this opinion.2
PROCEDURAL HISTORY
On February 2, 2018, a St. Charles Parish Grand Jury returned an eight-count indictment
charging defendant, J.E., with various sex offenses against J.H. Defendant was charged
with aggravated rape of a juvenile under thirteen years of age in violation of La. R.S. 14:42
(count one); first degree rape of a juvenile under thirteen years of age in violation of La.
R.S. 14:42 (count two); molestation of a juvenile under the age of thirteen in violation of La.
R.S. 14:81.2 (counts three through five); molestation of a juvenile over the age of thirteen
but under seventeen in violation of La. R.S. 14:81.2 (count six); sexual battery in violation
of La. R.S. 14:43.1 (count seven); and oral sexual battery in violation of La. R.S. 14:43.3
(count eight). On February 6, 2018, defendant pled not guilty at his arraignment.
On January 24, 2019, a twelve-person jury found defendant guilty as charged on counts
three through six. He was found not guilty on counts one, two, seven, and eight. The record

7 of 23

shows that defendant was convicted by a vote of eleven out of twelve on counts three
through five and unanimously convicted on count six. Following the verdicts, defendant
moved for a judgment notwithstanding the verdict, which was denied.
On February 1, 2019, defendant filed a motion for new trial, a motion for post-verdict *1267
judgment of acquittal and a notice of intent to appeal. On June 17, 2019, the **2 trial court
denied defendant's motions. Defendant was sentenced on count six to twenty years in the
Department of Corrections, without eligibility to have the conviction set aside or dismissed
under La. C.Cr.P. art. 893, and on counts three through five to ninety-nine years each
without the benefit of probation, parole, or suspension of sentence. The trial judge ordered
counts three, four, and five to run concurrently with each other and consecutively to count
six. After sentencing, the trial court granted defendant's appeal. This appeal followed.
FACTS
The victim, J.H., in this case is defendant's granddaughter. At trial, J.H. testified that she
was fifteen years oia and in the tenth grade. Growing up, she spent a lot of time with her
grandparents, defendant (her grandfather) and S.T (her grandmother). Her mom, S.E., was
a single parent who worked all the time and her grandparents helped in the summer and
with school and sports. She and her brother, P.H., would often stay over at her
grandparents’ house during the summer and school year, where she had her own room.
She testified that she was physically changing and beginning puberty when she was ten
years old and in the fifth grade. Defendant noticed her development and would tell her she
was beautiful and pretty. J.H. testified that over the course of four years, defendant put his
fingers inside of her vagina, performed oral sex on her, placed his penis in her vaginal
area, and ejaculated on her.
J.H. testified that the first incident occurred in November of her fifth grade year when she
was ten years old and defendant took her to Alabama to do research for a social studies
project. They spent two nights in a motel room that had two beds. The first night, she
remembered waking up to something moving next to her in her bed and saw it was
defendant. He had his hand on her and she pushed defendant away. He told her that “it
was normal; that it was okay.” She pushed him again and defendant told her that
“everything would be okay.” Defendant then put **3 his hands in her shorts and started
touching her vagina. She testified that after that, she “zoned out, and the only thing [she]
saw was his face and the way he looked at [her].” Defendant then put his mouth on her
vagina. She testified that the touching occurred for about 30 minutes. When he was done,
he got out of her bed and went back to his bed, and she immediately took a shower. She
was not able to sleep the rest of the night. The next day they worked on her project and
defendant took her shopping and bought her an expensive dress. When she arrived home,
she did not tell anyone about the incident because she did not know what to say to anyone,
and “saying it would have made it real.... I just wanted to believe it was just all a dream;

8 of 23

that it wasn't real.”
J.H. testified that the second incident occurred a few months later, when she was still ten
years old and she slept at defendant's house. She was asleep in her room when defendant
walked in and got into her bed. She told him to “get out,” but he did not leave. She was on
her back and defendant pulled down her pants, put his mouth on her vagina, and placed
his fingers inside of her, which hurt. She testified that she “froze” and “couldn't move.”
When defendant left, she took a shower because she “felt gross.”
J.H. testified she could not remember specifically when the next incident occurred because
the incidents “started happening all the time .... It went from about I'd get a week break ...
and then move on to once a week to every other day to almost all the time, every time I
was *1268 over there.” After the first two incidents, defendant began to touch himself or
have her touch him. Defendant also touched her breasts in his office and on the sofa at his
house. He would have her lie on her side or back and place his penis in her vagina area.
She testified that “he wouldn't put it in me; he would just like ... thrust against me,” and he
would ejaculate on her inner thighs or back. J.H. denied that defendant ever put his penis
in her mouth or tried to kiss her. However, she testified that he did attempt to move her in a
position **4 so that her mouth was on his penis when he “would get like, I guess, upside
down to where his head was facing my feet, and his legs were by my head.” When asked if
defendant ever successfully penetrated her, J.H. replied, “Not that I know of but testified
that the tip of his penis went into the opening of her vagina. She recalled one time when
she was lying on her back, defendant spread her legs apart and tried to “put it in, but it
wasn't hard, so we couldn't. And then he started doing what he'd normally do to me, and
then he came and then left.”
J.H. testified that the last time defendant touched her occurred a few weeks before her hip
surgery in 2017, when she was thirteen years old. Defendant came into her room at his
house while she was asleep. She told him to get out but he forced himself into her bed.
Defendant pulled her pants down, put his fingers inside her, moved down her body, and
then put his mouth on her. Defendant thrusted against her and tried to force himself into
her vagina. She flinched and kicked and then he left.
J.H. testified that defendant “put his mouth” on her vagina more than ten times within each
of the years she was eleven, twelve, and thirteen years old. The longest amount of time
between incidents occurred between the first and second incidents. All of the incidents with
defendant occurred in St. Charles Parish at her house and defendant's house and the one
time in Alabama.
When asked if defendant ever tried to give her anything in exchange for pleasing him, J.H.
replied “He would buy me stuff, but if I wanted something, I would have to give him
something in return.” She testified that whenever she asked him for something, he would

9 of 23

put his hands in her pants and gesture that he needed “this.” While the abuse was going on
she would think “Why is this happening to me?” J.H. testified that she did have “about
three” conversations with defendant when she was eleven, twelve, and thirteen and she
threatened to tell someone. Every **5 time she mentioned telling someone, defendant
would say, “There's no point, because before the cops would get to me, I'd blow my brains
out.”

J.H.’ mother (S.E.) and the daughter of defendant and S.T., testified that after she divorced
J.H. and P.H.'s father, she moved back in with defendant at his home. After living with her
parents for approximately a year, she and her children moved, eventually out of state, 3
and she relied on family and friends to help out with the children because she worked full­
time. She particularly relied on her parents when J.H. and P.H. started to get older and
played sports. S.T. and defendant would drive them to practice and help pay for “extras.”
S.E. testified that as J.H. grew older, defendant wanted to always be there for J.H. but not
P.H., which struck her “as a little odd.” If the children had sports events at the same time,
defendant would always go to see J.H. play. One time when she came downstairs, she saw
J.H., who was twelve or thirteen years old, sitting on defendant's lap and she made a joke
out of *1269 the fact that J.H. was too old to sit on his lap. Another time when she and the
children slept over at her parents’ house, she looked into the room where J.H. was asleep
and saw defendant sleeping next to J.H. in his underwear with his hand over her shoulder.
She woke him up and asked him what he was doing. Defendant was flustered and said he
must have been sleep walking. S.E. testified that if she objected to J.H. sleeping at her
parents’ house, both J.H. and defendant would “throw a fit.” Also, if she punished or
disciplined J.H., defendant would go behind her back to fix things. For instance, one time
she took away J.H.'s phone because she was not doing well in school, and defendant gave
J.H. a phone. Another time, J.H. wanted a Fitbit.4 Although S.E. told J.H. she could not
have one, defendant bought her one anyway.
**6 S.E. testified that at the time of J.H.'s disclosure, J.H. was already in therapy because
of anger issues and trouble at school. Defendant paid for and drove J.H. to therapy. S.E.
testified that there was tension between her and J.H. because “she didn't feel like she
needed to follow any rules,” except defendant's rules. Around the time when J.H. was
going into the fifth grade, J.H. “became defiant,” and when she asked her to do something,
“it was a fight.” S.E. testified that prior to J.H.'s disclosure, she told defendant that she
thought J.H. was being molested because she “had all the classic symptoms, that I
thought, of being molested ... the change in her appearance, her anger, her attitude.”
S.E. testified that defendant and J.H. were often alone together. When she and the children
lived only two streets from her parents’ house, defendant would often insist that J.H. sleep
over because he did not want to pick her up at her house to bring her to school the next

10 of 23

day. Defendant and J.H. would also go hunting alone. S.E. testified that defendant would
often take J.H. shopping at places like Victoria's Secret and other boutiques, and they
would go out to eat together alone without including other family members. S.E. testified
that she trusted defendant to take care of J.H. the same as she would.
S.E. testified that she was aware of the trip J.H. went on with defendant to Alabama in
early November 2013, when J.H. was ten years old and in fifth grade. When J.H. came
home from the trip, she was wearing a tight, leopard print, V-neck dress which S.E. thought
was inappropriate for a ten-year-old girl to wear. The cost of the dress was between sixty
and seventy dollars. S.E. testified that the incident “rubbed [her] the wrong way” because it
was a lot of money to spend on a dress, and the dress was inappropriate.
S.E. testified that on November 24, 2017, “Black Friday,” she went shopping with J.H. and
S.T. (J.H.'s grandmother). While shopping, J.H. had thrown a “huge fit” when they refused
to buy her something that she wanted. When they arrived **7 home, she and S.T.
questioned J.H. about what was going on with her. J.H. was hesitant to say anything in
front of S.T. and wanted her to leave the room. S.T. asked J.H. if “Granddad” did something
to her, and J.H. nodded affirmatively. S.E. testified that she was shocked. S.T. immediately
called defendant and asked, “What did you do to your granddaughter?” She could not hear
what defendant was saying, but did hear S.T. say, “I guess I got my answer.” At this point,
J.H. “shut down” and would not talk about it anymore. S.E. testified that they did not go into
any details concerning what occurred, nor did *1270 she call the police. J.H. was
embarrassed and was “adamant that she was not saying anything else to anybody else.”
S.E. testified that she did not know what to do. When she later spoke to defendant, he told
her that child services would take J.H. and P.H. away, and she was afraid.
S.E. testified that the days between J.H.'s disclosure and her reporting the abuse were
“just a whirlwind ... I had my dad calling and texting me, and it was just really emotional.
He's threatening to kill himself, and that's my dad.” At trial, S.E. identified the text
messages exchanged between herself and defendant from November 24-30, 2017. Hours
after J.H. disclosed she was abused by defendant, S.E. texted defendant demanding
money to take care of J.H. and P.H. in the “lifestyle they were used to” and she wanted
their inheritance. Defendant texted that S.T. would be taking over the accounts and that he
was “ready to die.” S.E. told defendant that she forgave him for “my sake and the kids.”
She texted him that she loved him and wanted him to get help. Defendant responded to
S.E. that she had no idea how much that meant to him and that he was “so very sorry." The
two also discussed finances and whether defendant would sign property over to her. S.E.
told defendant that she did not want to see him in jail or dead, but that he needed to get
help. Defendant texted he had already talked to S.T. about getting help and stated that he
had similar issues going back to his childhood. He told her that she was the first and only
person he told about these issues in sixty years. At one point, defendant texted, **8 “I went

11 of 23

more than 30 good years raising a daughter, with many young girls all around often, and no
desire to do anything, then something snapped.” Another time, he stated, “I hate myself
every second for putting everyone through this. All I know to do is to try with all I have to
help make life better for everyone I hurt.” The two also discussed whether or not to report
the incident. Defendant stated that if the incident was reported, he would get life in prison,
but whatever S.E. wanted for him, he understood. He told her that he wished they could
resolve everything without “involving the State” and asked her to let him know how much
time he had so he could get his affairs in order.
On December 2, 2017, S.E. texted her friend, J.H's godmother, informing her that
defendant had touched J.H and talked to her about reporting the abuse. The next day,
J.H's godmother went to see J.H. and asked her “yes or no” questions about the abuse.
J.H. disclosed details confirming the abuse, and responded affirmatively that defendant put
his penis in the opening of J.H.'s vagina, touched her vagina with his fingers, ejaculated on
her, touched her “butt” with his penis, made her touch his penis with her hand, and touched
her breasts. As part of her employment duties, J.H's godmother, a mandatory reporter,
disclosed the abuse to the police on her way home. S.E. reported the abuse to the police
the next day, December 3, 2017.
A few weeks after defendant was arrested, S.E. testified that she filed a lawsuit for
monetary damages against defendant and her half-brother. She filed suit after she became
aware that defendant had transferred a large lump sum of money from his checking
account into another checking account owned by defendant and her half-brother, and she
was worried that J.H. would not receive anything. She also worried that defendant would
leave the country. Defendant, in turn, sued J.H. for wrongful incrimination. The suit against
defendant was settled for $900,000.00.5
*1271 **9 On Sunday, December 3, 2017, Detective Christopher Waguespack, a juvenile
detective with the St. Charles Parish Sheriff's Office, was notified of a call regarding the
possible abuse of a juvenile, J.H, who was then fourteen years old. On December 8, 2017,
Detective Waguespack met with J.H. and her mother, S.E. At the time, S.E. was living in
Mississippi with J.H. and P.H., her son. Detective Waguespack testified that S.E. informed
him that on November 24, 2017, “Black Friday,” J.H. told her and S.T.6 that defendant had
been molesting her for the past four years. S.E. provided Detective Waguespack with the
text messages between her and defendant.
Detective Waguespack spoke to J.H. alone. He testified that J.H. was shy and it appeared
that she did not want to talk to him or be there. When J.H. spoke about the allegations her
mood completely changed, she became visibly upset and started to cry. J.H. informed him
that defendant first abused her in Alabama when she was ten years old, and the abuse
lasted until she moved to Mississippi earlier in 2017, around her fourteenth birthday. She

12 of 23

told him that the first time occurred in Alabama when she stayed in a motel alone with
defendant. Defendant put his hand under her clothing and penetrated her with his fingers.
She told him that the abuse occurred continuously, every day or every other day, and
became worse over the next four years. J.H. stated that defendant had digitally penetrated
her with his fingers, ejaculated on her, made her ejaculate him using her hand, performed
oral sex on her, and touched her on the breasts, "butt," and vagina.7 J.H. denied that
defendant penetrated her with his penis, but stated that defendant did attempt to penetrate
her with his penis at his house during the last incident. She was able to push him away. If
she wanted to go shopping or go to the mall with her friends, defendant would **10 make
her do something for the money. J.H. also stated that defendant threatened many times to
kill himself if anyone ever found out, and she never told anyone what was happening
because she loved defendant and did not want him to kill himself.
Detective Waguespack testified that based on the information provided to him, J.H. was
molested continuously between her tenth and fourteenth birthdays, and the abuse became
more intense when she was approximately twelve and a half. J.H. only provided him with
time frames of the incidents of abuse, rather than specific dates, which he confirmed was
consistent in his experience with other juvenile sex abuse victims. A physical examination
was not performed of J.H. since it had been approximately five or six months since the last
incident.
Detective Waguespack testified he also interviewed J.H's godmother and S.T., both of
whom provided information consistent with the information he received from J.H and S.E.
During the interviews, family members indicated that they feared defendant would take his
own life or flee the country after learning they had reported the abuse. On December 13,
2017, Detective Waguespack secured an arrest warrant *1272 for defendant who turned
himself in approximately two weeks later.
Detective Waguespack testified that in March 2018, he took a second recorded statement
from J.H., who was fourteen years old at that time. J.H. told him that she was concerned
that she was not a virgin anymore because defendant had rubbed his penis on her and she
was having problems sleeping at night.
At trial, P.H. (J.H.'s brother) testified that he was thirteen years old and in seventh grade.
He testified that he observed specific instances where defendant touched J.H. One day
when he was in fifth grade and approximately ten or eleven years old, he got off the school
bus at defendant's house, and upon looking through the window, he saw defendant sitting
on the couch with J.H., touching her “boobs.” He heard J.H. tell defendant to get off of her.
A week later he walked in on defendant touching J.H. again “[i]n the chest area.” He yelled
and cursed defendant and J.H. **11 ran upstairs. Defendant told him not to tell anyone or
he would hurt him. During the spring of his fifth-grade year, he heard defendant and J.H.

13 of 23

arguing upstairs. When he went upstairs, he saw defendant lying on top of J.H., who was
wearing a bathing suit. Defendant was fully clothed. J.H. ran downstairs and he told
defendant that he would call the police if it happened again. Defendant responded that he
would hurt him or kill himself. Another time he heard J.H. and defendant arguing behind
closed doors and J.H. was telling defendant not to touch her. P.H. testified that defendant
would hit him in the head, punch him, or slap him when he observed any abuse. He
admitted that he only disclosed what he observed between defendant and J.H. after an
argument with his mother, S.E.
S.T. (J.H.'s grandmother) testified that J.H. and P.H. lived with her and defendant for
several years, and they brought the children to and from school and to practices because
S.E. worked. After they moved out, she and defendant continued to bring the children to
and from school and to practices and they paid for all of the sports expenses. S.T. testified
that defendant would bring the children to school in the morning and would usually take
J.H. to volleyball after school. She testified that they saw the children every day. S.T.
testified that after the Alabama trip, J.H. and defendant's relationship “started to get a little,
like strange” and they spent more time together. She testified that defendant only wanted to
take J.H. to practice.
DISCUSSION
1
2
3 In his second pro se assignment of error, defendant argues that the
evidence was insufficient to support his convictions of molestation of a juvenile. When the
issues on appeal relate to both the sufficiency of the evidence and one or more trial errors,
the reviewing court should first determine the sufficiency of the evidence by considering the
entirety of the evidence. State v. Hearold. 603 So.2d 731,734 (La. 1992). The reason for
reviewing sufficiency of evidence first is that the accused may be entitled to an acquittal
under Hudson v. Louisiana. 450 U.S. 40, 101 S.Ct. 970, 67 L.Ed.2d 30 (1981), if a
reasonable trier of fact, viewing the evidence in the light most favorable to the prosecution,
could not reasonably conclude that all of the elements of the offense have been proven
beyond a reasonable doubt. Therefore, consideration of sufficiency of evidence precedes
consideration of other assignments of error which, if meritorious, result in vacating a
conviction due to trial errors, and remand for possible retrial.
4
5 When, however, a claim of insufficiency of evidence is found to have merit, it
results in a reversal due to a failure to prove a charge beyond a reasonable doubt, to which
jeopardy attaches and cannot be *1273 retried. Thus, sufficiency of evidence analysis also
precedes consideration of whether a verdict must be vacated and remanded under Ramos
v. Louisiana. 590 U.S.
, 140 S.Ct. 1390, 206 L.Ed.2d 583, 2020 WL 1906545 (2020).
Therefore, for the reasons stated herein, this Court will address defendant's sufficiency of
evidence claim as to counts three through six, despite that defendant's convictions and
sentences must be vacated and remanded for a new trial pursuant to Ramos, supra, as to

14 of 23

counts three through five.
**12 Defendant contends the testimony presented at trial failed to include any evidence to
support the element of “the use or influence by virtue of a position of control or
supervision.” He argues that proving the crime of molestation of a juvenile requires more
than “simply having a position of supervision or control; the offender must actually use the
influence gained by that position in order to overbear the will of the victim and accomplish
the act complained of.” He claims that because the State failed to prove this essential
element, a responsive verdict of indecent behavior with a juvenile is more appropriate.
Defendant also asserts that the State failed to present any evidence to support a finding
that he used force, violence, duress, psychological intimidation, or the threat of great bodily
harm.
6 The constitutional standard for testing the sufficiency of evidence requires that the
evidence, direct or circumstantial, or a mixture of both, viewed in the light most favorable to
the prosecution, was sufficient to convince a rational trier of fact that all of the elements of
the crime have been proven beyond a reasonable doubt, in accord with Jackson v, Virginia.
443 U.S. 307, 99 S.Ct. 2781,61 L.Ed.2d 560 (1979).
7 The rule as to circumstantial evidence is that “assuming every fact to be proved that
the evidence tends to prove, in order to convict, it must exclude every reasonable
hypothesis of innocence.” La. R.S. 15:438. This is not a separate test from the Jackson
standard, but rather provides a helpful basis for determining the existence of reasonable
doubt. State v. Anderson. 10-779 (La. App. 5 Cir. 3/27/12), 91 So.3d 1080, 1085; State v.
Wooten. 99-181 (La. App. 5 Cir. 6/1/99), 738 So.2d 672, 675, writ denied. 99-2057 (La.
1/14/00), 753 So.2d 208. All evidence, both direct and circumstantial, must be sufficient to
support the conclusion that the defendant is guilty beyond a reasonable doubt. Id.
Defendant was indicted with three counts of molestation of a juvenile under the age of
thirteen, and one count of molestation of a juvenile over the age of thirteen **13 but under
seventeen. The State alleged in each of the four counts that defendant used “force,
violence, duress, menace, psychological intimidation, threat of great bodily harm, or by the
use of influence by virtue of defendant's care, custody, control and supervision of the
juvenile.” La. R.S. 14:81.2 provides, in pertinent part:
A. (1) Molestation of a juvenile is the commission by anyone over the age of seventeen
of any lewd or lascivious act upon the person or in the presence of any child under the
age of seventeen, where there is an age difference of greater than two years between
the two persons, with the intention of arousing or gratifying the sexual desires of either
person, by the use of force, violence, duress, menace, psychological intimidation,
threat of great bodily harm, or by the use of influence by virtue of a position of control
or supervision over the juvenile. Lack of knowledge of the juvenile's age shall not be a

15 of 23

defense.
***
B. (1)
***
*1274 (2) Whoever commits the crime of molestation of a juvenile, when the victim is
thirteen years of age or older but has not yet attained the age of seventeen, and when
the offender has control or supervision over the juvenile, shall be fined not more than
ten thousand dollars, or imprisoned, with or without hard labor, for not less than five
nor more than twenty years, or both. The defendant shall not be eligible to have his
conviction set aside or his prosecution dismissed in accordance with Code of Criminal
Procedure Article 893.
***
D. (1) Whoever commits the crime of molestation of a juvenile when the victim is under
the age of thirteen years shall be imprisoned at hard labor for not less than twenty-five
years nor more than ninety-nine years. At least twenty-five years of the sentence
imposed shall be served without benefit of probation, parole, or suspension of
sentence.
8 Defendant was found guilty on counts three through five of molestation of a juvenile
under the age of thirteen. In those counts, the State had to prove that J.H. was under the
age of thirteen at the time of the offenses, and provide evidence to meet the general
definition of molestation of a juvenile under La. R.S. 14:81.2 A(1) and D(1). As to count six,
the State had to prove J.H.'s age, the general definition **14 of molestation of a juvenile
and that defendant committed the molestation while having supervision or control under La.
R.S. 14:81.2 A(1) and B(2). 8
9
10 The jurisprudence has interpreted the “supervision and control" element of
molestation of a juvenile to be satisfied by someone who has emotional control over the
victim, as well as by someone who is a live-in boyfriend, non-custodial parent, babysitter,
relative, friend, a pastor, or neighbor. State v. Davis. 47,599 (La. App. 2 Cir. 1/16/13), 108
So.3d 833, 841 .writ denied. 13-381 (La. 9/20/13), 123 So.3d 163; State v. Ellis. 38,740
(La. App. 2 Cir. 8/18/04), 880 So.2d 214, 219. Louisiana courts consider the following
factors when making a determination as to whether a defendant used influence by virtue of
his position of supervision or control over the victim: (1) the amount of time the defendant
spent alone with the victim; (2) the nature of the relationship between the victim and the
defendant; (3) the defendant's age; and (4) the defendant's authority to discipline. State v.
Dale. 50, 195 (La. App. 2 Cir. 11/18/15), 180 So.3d 528, 535, writ denied. 15-2291 (La.

16 of 23

4/4/16), 190 So.3d 1203. The harsher penalty provision for molestation of a juvenile where
the offender has control or supervision over a juvenile exists because an offender who has
control or supervision over a juvenile is in a position of trust. Id.; State v. Moses. 615 So.2d
1030 (La. App. 1 Cir. 1993), writ denied. 624 So.2d 1223 (La. 1993).
The State presented sufficient evidence on each of the four counts that defendant *1275
used his position of control and supervision over J.H. to continually abuse her. The
evidence establishes that defendant, age seventy at the time of trial, was J.H.'s biological
grandfather. S.E., J.H.'s mother, routinely utilized both defendant and S.T. to watch and
supervise J.H. and P.H. because she was a single mother who **15 worked full time. As
J.H.'s grandfather, defendant was in a position of trust and he acted as J.H.'s father-figure.
There was sufficient testimony concerning the amount of time J.H. spent under defendant's
supervision alone, including a weekend trip to Alabama where the first incident of abuse
occurred. Defendant would buy J.H. clothing, take her out to eat, and drive her to sports
events, therapy sessions, and school. Defendant ignored other family members, including
P.H., so that he could spend time alone with J.H. Additionally, defendant thwarted S.E.'s
attempts to parent or discipline J.H. by either giving her what she wanted or returning items
to J.H. that her mother had taken away. Defendant also threatened to kill himself if J.H. or
P.H. told anyone about the abuse. S.E. testified she moved to Mississippi in part because
she felt she was losing control over J.H., due to defendant's influence. Based on the
evidence, we find that the State proved that defendant committed the offenses by virtue of
his position of control or supervision over J.H. We further find that all elements necessary
to support defendant's convictions of molestation of a juvenile were proven by the State.9
11
12
13 We further find defendant's argument that the evidence presented was
only sufficient to convict him of the lesser charge of indecent behavior of a juvenile is
without merit. La. C.Cr.P. art. 814, which lists responsive verdicts authorized by the
legislature, does not list either molestation of a juvenile or indecent behavior with a
juvenile. However, La. C.Cr.P. art. 815 allows the inclusion of lesser-included grades of
offenses even when not listed in La. C.Cr.P. art. 814. Indecent behavior with a juvenile is a
responsive verdict to molestation of a juvenile. See State v. Busby, 94-1354 (La. App. 3 Cir.
4/5/95), 653 So.2d 140, 147, writ denied. 95-1157 (La. 9/29/95), 660 So.2d 854. The record
shows that a jury charge conference **16 was held, the responsive verdicts were
discussed for each charge, and defendant did not object to the exclusion of the responsive
verdict of indecent behavior with a juvenile under thirteen. An irregularity or error cannot be
availed of after a verdict unless it was objected to at the time of occurrence. La. C.Cr.P. art.
841. Furthermore, we note that it was defense counsel who moved to exclude the
responsive verdicts for counts three through six. Thus, defendant waived the right to assert
this as error.
14

17 of 23

Defendant also challenges the credibility of J.H and P.H.'s accusations of abuse

because they only disclosed the abuse after arguments with their mother, S.E. He also
alleges that the text messages exchanged between him and S.E. following J.H's disclosure
further undermines J.H's accusations of abuse because S.E. demanded money from him
instead of immediately notifying the police. He further challenges J.H.'s disclosure to J.H's
godmother, who he argues violated every ethical code concerning her profession by asking
J.H. “yes or no” questions concerning the abuse.
15
16
17
18
19 *1276 The credibility of a witness, including the victim, is
within the sound discretion of the trier of fact, who may accept or reject, in whole or in part,
the testimony of any witness. State v. Gonzalez. 15-26 (La. App. 5 Cir. 8/25/15), 173 So.3d
1227,1233. In the absence of internal contradiction or irreconcilable conflicts with physical
evidence, the testimony of one witness, if believed by the trier of fact, is sufficient to
support a conviction. State v. Hernandez. 14-863 (La. App. 5 Cir. 9/23/15), 177 So.3d 342,
351, writ denied. 15-2111 (La. 12/5/16), 210 So.3d 810. In sex offense cases, the testimony
of the victim alone can be sufficient to establish the elements of a sexual offense, even
when the State does not introduce medical, scientific, or physical evidence to prove the
commission of the offense, ]cL It is the role of the fact-finder to weigh the respective
credibility of the witnesses; thus, the appellate court should not second-guess the credibility
determinations of the trier of **17 fact beyond the sufficiency evaluations under the
Jackson standard of review. State v. Alfaro. 13-39 (La. App. 5 Cir. 10/30/13), 128 So.3d
515, 525, writ denied. 13-2793 (La. 5/16/14), 139 So.3d 1024. Even where there is
conflicting testimony about factual matters, the resolution of which depends upon a
determination of the credibility of the witnesses, the matter is one of the weight of the
evidence, not its sufficiency. State v. Vincent. 07-239 (La. App. 5 Cir. 12/27/07), 978 So.2d
967, 973.
The jury heard and considered (1) that J.H. was in therapy for anger issues and problems
at school; (2) the circumstances that prompted J.H.'s disclosure; (3) P.H.'s testimony
regarding incidents he observed between defendant and J.H., and that he only divulged
what he saw after an argument with his mom; and (4) the text messages exchanged
between S.E. and defendant immediately after the disclosure, including the fact that S.E.
demanded money. In finding defendant guilty of the four counts of molestation of a juvenile,
the jury weighed the credibility of the witnesses, which this Court will not second guess on
appeal. The jury also heard testimony from J.H's godmother. We find defendant's argument
concerning J.H's godmother has no bearing on the weight of the evidence presented by the .
State against defendant. See Vincent, supra. Accordingly, this assignment of error is
without merit.
20 In his first pro se assignment of error and supplemental assignment of error, based
on the Unites States Supreme Court's ruling in Ramos, defendant argues that his
convictions for molestation of a juvenile were unconstitutionally obtained by the return of

18 of 23

non-unanimous verdicts. Defendant argues that he was convicted by a non-unanimous jury
on three of his four convictions and that this Court should review the non-unanimous jury
verdicts as an error patent.10 He further argues that a **18 conviction based on an
insufficient number of jurors should constitute both a structural error and an error patent.
The record reflects that on January 24, 2019, defendant was convicted by a vote of eleven
out of twelve on counts three through five and unanimously convicted on count six.11 He
was found not guilty on counts one, two, seven, and eight.
*1277 On February 1,2019, defendant filed a motion for new trial and a motion for post­
verdict judgment of acquittal, arguing in both motions that his constitutional rights were
violated when the jury returned a non-unanimous verdict. The trial court denied the
motions.
Since the punishment for the offenses in counts three through five is necessarily
confinement at hard labor, a jury of twelve persons was required. See La. Const. Art. I, §
17; La. C.Cr.P. art. 782; La. R.S. 14:81.2D(1).12 Non-unanimous verdicts were previously
allowed under La. Const. Art. I, § 17 and La. C.Cr.P. art. 782, and the circumstances of this
case. The constitutionality of the statutes was previously addressed by many courts, all of
which rejected the argument. See Apodaca v. Oregon, 406 U.S. 404, 92 S.Ct. 1628, 32
L.Ed.2d 184 (1972); State v. Bertrand. 08-2215, 08-2311(La. 3/17/09), 6 So.3d 738,
742-43; State v. Brooks. 12-226 (La. App. 5 Cir. 10/30/12), 103 So.3d 608, 613-14, writ
denied. 12-2478 (La. 4/19/13), 111 So.3d 1030.
However, recently the United States Supreme Court in Ramos found that the Sixth
Amendment right to a jury trial, as incorporated against the States by the **19 Fourteenth
Amendment, requires a unanimous verdict to convict a defendant of a serious offense. The
Court held:
There can be no question either that the Sixth Amendment's unanimity requirement
applies to state and federal criminal trials equally. This Court has long explained that the
Sixth Amendment right to a jury trial is “fundamental to the American scheme of justice”
and incorporated against the States under the Fourteenth Amendment. This Court has
long explained, too, that incorporated provisions of the Bill of Rights bear the same
content when asserted against States as they do when asserted against the federal
government. So if the Sixth Amendment's right to a jury trial requires a unanimous
verdict to support a conviction in federal court, it requires no less in state court.
(Footnotes omitted.)
Id. at 1397.
21

19 of 23

22

For purposes of the Sixth Amendment, federal law defines petty offenses as

offenses subject to imprisonment of six months or less, and serious offenses as offenses
subject to imprisonment over six months. The Sixth Amendment's right to a jury trial only
attaches to serious offenses. See generally Lewis v. United States. 518 U.S. 322, 327-28,
116 S.Ct. 2163, 135 L.Ed.2d 590(1996): Hill v. Louisiana. 2013 WL 486691 (E.D. La.
2013).
Based on Ramos and the fact that the instant case is on direct appeal,13 we find that since
the verdicts resulting from defendant's jury trial on counts three through five were not
unanimous for these “serious offenses” in compliance with *1278 Ramos, defendant's
convictions and sentences on counts three through five are vacated. Because we find that
the State introduced evidence sufficient to sustain convictions on counts three through five,
and that the assignment of error claiming insufficiency **20 of evidence on those counts to
be without merit, the matter is remanded to the trial court for further proceedings consistent
with this opinion.14
Further, because defendant's convictions and sentences on counts three through five have
been vacated, we pretermit any discussion of defendant's remaining assignment of
error.15
ERRORS PATENT DISCUSSION
23 The record was reviewed for errors patent, according to the mandates of La. C.Cr.R
art. 920; State v. Oliveaux. 312 So.2d 337 (La. 1975); and State v. Weiland. 556 So.2d 175
(La. App. 5 Cir. 1990). The following error patent requires correction.
24 Defendant received an incomplete notice of the time limitation for seeking post­
conviction relief. If a trial court fails to advise, or provides an incomplete notice pursuant to
La. C.Cr.R art. 930.8, this Court may correct said error by informing the defendant of the
applicable delay period for post-conviction relief by means of its opinion. See State v.
Oliver. 14-428 (La. App. 5 Cir. 11/25/14), 165 So.3d 970, 978, writ denied. 14-2693 (La.
10/9/15), 178 So.3d 1001. Thus, defendant is hereby informed that no application for post­
conviction relief, including applications which seek an out-of-time appeal, shall be
considered if it is filed more than two years after the judgment of conviction and sentence
have become final under the provisions of La. C.Cr.P. arts. 914 or 922.
DECREE
For the reasons stated herein, defendant's conviction and sentence on count six is
affirmed: defendant's convictions and sentences on counts three through five **21 are
vacated, and the matter is remanded to the trial court for further proceedings consistent
with this opinion.
CONVICTION AND SENTENCE ON COUNT SIX AFFIRMED: CONVICTIONS AND
SENTENCES ON COUNTS THREE THROUGH FIVE VACATED: REMANDED

20 of 23

All Citations
301 So.3d 1262, 19-478 (La.App. 5 Cir. 9/2/20)
Footnotes

21 of 23

1

Initials of the victim, defendant, and witnesses whose name can lead to the
victim's identity are utilized pursuant to La. R.S. 46:1844 W(3). State v. Ross,
14-84 (La. App. 5 Cir. 10/15/14), 182 So.3d 983.

2

This superseding opinion was issued to afford a greater probability of privacy
to the victim and her family than the original, exceeding the requirements of
URCA Rule 5-2. It is identical in substance and analysis.

3

S.E. testified that she moved in part because she felt her children did not
listen to her when she lived closer to her parents and she felt defendant had
a lot to do with it.

4

An electronic device usually worn like a watch, which functions primarily as
an activity or fitness tracker.

5

S.E.'s half-brother testified that almost one million dollars was seized from a
joint bank account he owned with defendant, although the money only
belonged to defendant. He testified defendant talked about leaving the
country in November before J.H.'s disclosure.

6

Defendant and S.T. were married over thirty years. S.T. filed for divorce a few
weeks after J.H.'s disclosure, which was granted by the time trial occurred.

7

The same day, Det. Waguespack testified he observed the forensic interview
between J.H and Lieutenant Renee Kinler, which was consistent with her
initial disclosure but more detailed regarding defendant performing oral sex
on her. He testified that generally, female sex abuse victims usually feel
uncomfortable speaking with males about sex acts and tend to hold back.

8

The jury verdict form as to count six generically refers to molestation of a
juvenile and does not include the additional element of control or supervision.
However, the element of control or supervision was included as an alternative
in count six of the indictment. Further, during voir dire, the State stated that it
had to prove “that element of intimidation or force or a threat and that person
being in a supervisory role,” and on “that last count of molestation, the
sentence would be 5 to 20 years.” The State referenced the supervision and
control element as well as the penalty-enhanced charge. During its closing,

the State argued that defendant had supervision and control of J.H. Thus,
based on a review of the record, the jury convicted defendant of the more
serious control and supervision offense and the evidence was clearly
sufficient. See State v. Johnson, 42,323 (La. App. 2 Cir. 8/15/07), 962 So.2d
1126, 1133-34.

22 of 23

9

Even though defendant only challenges one particular element, a review of
the record under State v. Ravmo. 419 So.2d 858, 861 (La. 1982), shows that
the State presented sufficient evidence to establish the remaining essential
statutory elements of molestation of a juvenile, including those counts during
the commission of which J.H. was under the age of thirteen.

10

This Court notified the Attorney General's Office of the constitutional
challenge raised in this appeal, to which no response has been provided.

11

Defendant does not have standing to challenge the constitutionality of his
verdict on count six because he was convicted by a unanimous jury. See
State v. Saulnv. 16-734 (La. App. 5 Cir. 5/17/17), 220 So.3d 871, 879. writ
denied. 17-1032 (La. 4/16/18), 240 So.3d 923.

12

Both La. Const. Art. I, § 17 and La. C.Cr.P. art. 782(A) provide, in pertinent
part, that a case for an offense committed prior to January 1, 2019, in which
the punishment is necessarily confinement at hard labor, shall be tried before
a jury of twelve persons, ten of whom must concur to render a verdict, and
that a case for an offense committed on or after January 1, 2019, in which the
punishment is necessarily confinement at hard labor, shall be tried before a
jury of twelve persons, all of whom must concur to render a verdict.

13

See Schriro v. Summerlin. 542 U.S. 348, 351, 124S.CL 2519, 2522, 159
L.Ed.2d 442 (2004), observing that “[wjhen a decision of [the United States
Supreme Court] results in a ‘new rule,’ that rule applies to all criminal cases
still pending on direct review,” citing Griffith v. Kentucky. 479 U.S. 314, 328,
107 S.Ct. 708, 93 L.Ed.2d 649 (1987) (“a new rule for the conduct of criminal
prosecutions is to be applied retroactively to all cases, state or federal,
pending on direct review or not yet final, with no exception for cases in which
the new rule constitutes a ‘clear break’ with the past.”).

14

See State v. Myles. 19-0965 (La. App. 4 Cir. 4/29/20), 299 So.3d 643.

15

In his remaining counseled assignment of error, defendant argues that the
trial court imposed an excessive sentence on count six when it ordered count
six to run consecutively to his sentences on counts three through five.

End of
Document

WestlawNext. © 2021 Thomson Reuters

23 of 23

©2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX “E
LA. SUPREME COURT:
RULING

11

0ESTLAW
State v. Elmer
Supreme Court of Louisiana, f February 9, 2021

310 So.3d 182 (Mem) ; 2020-01131 (La. 2/9/21)

(Approx. 1 page)

310 So.3d 182 (Mem)
Supreme Court of Louisiana.

STATE of Louisiana
v.

John ELMER
No. 2020-K-01131
02/09/2021

Applying For Writ Of Certiorari, Parish of St. Charles, 29th Judicial District Court Number(s)
17,740, Court of Appeal, Fifth Circuit, Number(s) 19-KA-478.
Opinion
*1 Writ application denied.
All Citations
310 So.3d 182 (Mem), 2020-01131 (La. 2/9/21)

End of
Document

WestlawNext. © 2021 Thomson Reuters

1 of 1

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Additional material
from this filing is
available in the
Clerk's Office.

